                    U.S. Department of Agriculture

                       Office of Inspector General
                                 Southeast Region




          Audit Report

 Tobacco Transition Payment Program
Tobacco Assessments Against Tobacco
     Manufacturers and Importers




                           Report No. 03601-15-At
                                 September 2008
                       UNITED STATES DEPARTMENT OF AGRICULTURE

                                  OFFICE OF INSPECTOR GENERAL

                                       Washington, D.C. 20250




 September 4, 2008


 REPLY TO
 ATTN OF:      03601-15-At

 TO:           Teresa C. Lasseter
               Administrator
               Farm Service Agency

 ATTN:         T. Mike McCann
               Director
               Operations Review and Analysis Staff

 FROM:         Robert W. Young /S/
               Assistant Inspector General
                for Audit

 SUBJECT:      Tobacco Transition Payment Program (TTPP) – Tobacco Assessments
               Against Tobacco Manufacturers and Importers


 This report presents the results of our audit of the Farm Service Agency’s management of the
 TTPP assessments against tobacco manufacturers and importers. Your August 4, 2008, written
 response to the official draft report is included as exhibit A with excerpts and the Office of
 Inspector General’s position incorporated into the relevant sections of the report.

 Based on the information in your written response, we accept management decisions for
 Recommendations 1, 2, 3, and 4. Management decision has been reached on all
 recommendations. Please follow your internal agency procedure in forwarding final action
 correspondence to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff
during the review.
Executive Summary
Tobacco Transition Payment Program/Tobacco Assessments
(Audit Report No. 03601-15-At)

Results in Brief                 The Fair and Equitable Tobacco Reform Act of 2004 (FETRA) established
                                 the Tobacco Transition Payment Program (TTPP), which provides for
                                 transitional payments to tobacco quota holders and producers of tobacco, and
                                 for the imposition of quarterly assessments during each of fiscal years (FY)
                                 2005 through 2014 on each tobacco product manufacturer and tobacco
                                 product importer that sells tobacco products in domestic commerce in the
                                 United States during that fiscal year.1 The assessments fund a 10-year
                                 transitional payment program to quota holders2 and producers in exchange
                                 for the termination of tobacco marketing quotas and related price supports.
                                 Persons who owned a farm with an established basic tobacco marketing quota
                                 as of October 22, 2004, or produced tobacco in 2002-2004 were eligible to
                                 receive transitional payments. These transitional payments may not exceed
                                 $10.14 billion.

                                 This report presents the results of Phase II of a three-phase audit of TTPP. In
                                 the Phase I audit we assessed the adequacy of FSA’s controls to ensure that
                                 TTPP payments were issued to eligible tobacco quota holders and found that
                                 generally the controls were adequate. The Phase II audit focuses on tobacco
                                 assessments against tobacco manufacturers and importers. The objective of
                                 the Phase II audit was to determine whether the Farm Service Agency (FSA)
                                 had established adequate controls to ensure that domestic tobacco
                                 manufacturers and importers of tobacco products are properly assessed and
                                 payments (assessments and penalties) are timely submitted to the Commodity
                                 Credit Corporation (CCC). FSA, acting on behalf of CCC, administers TTPP
                                 and calculates and collects the assessments based on tobacco data tobacco
                                 manufacturers and importers submit to FSA.3

                                 Based on our review, we concluded that overall FSA had adequate controls to
                                 ensure that it levied and collected the vast majority of assessments from
                                 tobacco manufacturers and importers of tobacco products to pay quota
                                 holders and producers. However, a number of companies were delinquent in
                                 paying their assessments and have been referred to the Department of Justice
                                 (DOJ) for debt collection. In addition, FSA has been unable to use data it
                                 receives from the Department of the Treasury Alcohol and Tobacco Tax and
                                 Trade Bureau (TTB) to pursue collection of assessments against non-
                                 reporting entities because the Internal Revenue Code of 1986 (IRC) limits the
                                 use of tax data for such purposes. In summary:

1
  FETRA section 625(b)(1), October 22, 2004.
2
  Quota holders are persons who owned farms on October 22, 2004, for which tobacco quota was assigned for the 2004 marketing year.
3
  All domestic manufacturers and importers of tobacco products must provide, on a monthly basis for each class of tobacco, the total
amount of tobacco products removed into domestic commerce.
5




USDA/OIG-A/03601-15-At                                                                                                        Page i
                                   •      A total of 90 entities filed the required reports with FSA but did not pay
                                          assessments owed. For these entities, CCC funded the payments to
                                          quota holders and producers. During FY 2005, FSA levied assessments
                                          against 215 tobacco manufactures and importers and against 330 in
                                          FY 2006. FSA collected assessments totaling over $2.9 billion including
                                          late payment interest for FYs 2005 and 2006. However, these
                                          90 manufacturers and importers failed to pay over $58.3 million in
                                          assessments for various reasons such as disputes, bankruptcies, etc. FSA
                                          has entered into payment agreements with 57 entities and is following
                                          the provisions of the Debt Collection Improvement Act for the
                                          remaining 33 entities who owe approximately $30 million of the
                                          $58.3 million. To date, 22 of the 33 entities have been referred to DOJ
                                          for legal action to collect the assessments owed.

                                   •      Additionally, 62 manufacturers and importers had not reported their
                                          tobacco data to FSA; therefore, they may be subject to an assessment
                                          and any penalties associated with not filing the required reports. FSA
                                          has not, so far, been able to take action against these entities because
                                          IRC limits FSA’s ability to use the tax data FSA receives from TTB to
                                          individually identify non-reporting entities and to levy and collect
                                          assessments and penalties that are due. Although FSA receives
                                          information from TTB, certain laws4 restrict the use of that data. An
                                          agreed-to draft memorandum of understanding (MOU), once signed,
                                          will allow FSA to use data provided by TTB to verify data
                                          manufacturers and importers report to FSA; however, even with the
                                          MOU, FSA lacks the authority to use TTB data to enforce collection of
                                          assessments and/or penalties against entities that have not filed reports
                                          with FSA.

                                   Collecting these assessments is important to ensure that adequate funds are
                                   available to reimburse CCC for the payments it makes to quota holders and
                                   producers. FETRA requires that no later than January 1, 2015, the Tobacco
                                   Trust Fund shall be used to fully reimburse with interest all funds CCC
                                   expended for purposes of the Act; however without the necessary authority to
                                   enforce the TTPP requirements (e.g., authorizing FSA to use TTB data for
                                   enforcement purposes) and to review manufacturers’ and importers’
                                   compliance with such requirements, CCC would not be reimbursed for
                                   payments to quota holders and producers. Without such authority, CCC
                                   would be left without a means to collect millions of dollars from tobacco
                                   manufacturers and importers.

                                   We also found FSA had not documented its policies and procedures for the
                                   tobacco transition assessment process. FSA officials told us they hesitated to
                                   develop a directive or handbook because of concerns in revealing their

4
    Internal Revenue Code, Title 26 U.S.C. § 6103.
5




USDA/OIG-A/03601-15-At                                                                                      Page ii
                   internal operating procedures and because of the sensitive nature of the data
                   used to calculate the tobacco assessments. According to the Office of
                   Management and Budget (OMB) Circular A-123, agency management is
                   required to have internal controls that include mechanisms such as proper
                   segregation of duties, proper authorization, and appropriate documentation.
                   Because the agency’s operating procedures are not documented, FSA is not
                   in compliance with OMB Circular A-123 and the lack of written procedures
                   could hinder its ongoing operations since one staff member is responsible for
                   all the functions of calculating the tobacco assessments. Although our review
                   of 29 quarterly assessments levied against 12 tobacco manufacturers and
                   importers did not disclose any discrepancies, we maintain that FSA should
                   revise its second-party review process to include a review of source
                   documents to ensure tobacco assessments are consistently calculated each
                   billing cycle and that the accuracy of assessments is validated.

                   FSA and the Office of the General Counsel (OGC) are working together to
                   address legal issues related to the collection of assessments. FSA needs to
                   consult with OGC in developing corrective actions and responding to the
                   audit recommendations. The Office of Inspector General may accept
                   alternative corrective actions put forth by FSA (in consultation with OGC),
                   so long as such alternative actions would correct the causes of the conditions
                   noted in the audit.

Recommendations
in Brief

                   We recommend that FSA:

                   •     Work with OGC to take legal action, as necessary, to enforce the
                         collection of assessments and penalties from non-paying and non-
                         reporting entities.

                   •     Develop and implement regulations and compliance procedures and
                         activities authorizing FSA personnel to conduct onsite compliance
                         reviews of all entities required to report to FSA.

                   •     Continue to work with TTB to achieve a MOU that will allow FSA to
                         use TTB’s data to identify tobacco permit holders and tax return data to
                         calculate assessments owed.




5




USDA/OIG-A/03601-15-At                                                                   Page iii
                   •     Develop written policies and procedures documenting the tobacco
                         transition assessment process to ensure that the assessment process is
                         performed consistently and documented instructions are available in
                         case of employee turnover. The procedures should identify levels of
                         review, authorizations, and other content pertinent to the requirements
                         of the FETRA and Federal regulations.

Agency Response    In its August 4, 2008, written response to our official draft report, FSA
                   generally concurred with each recommendation. FSA’s response is included
                   in this report as exhibit A.

OIG Position       Based on FSA’s response, we accept management decision for all
                   recommendations.




5




USDA/OIG-A/03601-15-At                                                                  Page iv
Abbreviations Used in This Report

CBP         Customs and Border Protection
CCC         Commodity Credit Corporation
DOJ         Department of Justice
FETRA       Fair and Equitable Tobacco Reform Act
FSA         Farm Service Agency
FY          Fiscal Year
MOU         Memorandum of Understanding
OGC         Office of the General Counsel
OMB         Office of Management and Budget
TTB         Alcohol and Tobacco Tax and Trade Bureau
TTPP        Tobacco Transition Payment Program
USDA        Department of Agriculture




5




USDA/OIG-A/03601-15-At                                 Page v
Table of Contents
Executive Summary ................................................................................................................................. i 

Abbreviations Used in This Report ....................................................................................................... v 

Background and Objectives ................................................................................................................... 1 

Findings and Recommendations............................................................................................................ 3 

    Section 1.           Tobacco Assessments ................................................................................................. 3 

        Finding 1  Internal Revenue Code Limits FSA’s Ability to Enforce Collection of Tobacco
                      Assessments and Penalties ...................................................................................... 3 
                           Recommendation 1 .......................................................................................... 6 
                           Recommendation 2 .......................................................................................... 6 
                           Recommendation 3 .......................................................................................... 7 

    Section 2.           Program Procedures .................................................................................................. 8 

        Finding 2  Program Operating Procedures Were Not Documented .............................................. 8 
                         Recommendation 4 .......................................................................................... 9 

Scope and Methodology ........................................................................................................................ 10 

Exhibit A – Agency Response .............................................................................................................. 12 




5




USDA/OIG-A/03601-15-At                                                                                                                    Page vi
Background and Objectives
Background                         The Fair and Equitable Tobacco Reform Act of 2004 (FETRA) established
                                   the Tobacco Transition Payment Program (TTPP), which provides for
                                   transitional payments to tobacco quota holders and producers of tobacco, and
                                   for the imposition of quarterly assessments during each of fiscal years
                                   (FY) 2005 through 2014 on each tobacco product manufacturer and tobacco
                                   product importer that sells tobacco products in domestic commerce in the
                                   United States during that fiscal year.5 The assessments fund a 10-year
                                   transitional payment program to quota holders6 and producers in exchange
                                   for the termination of tobacco marketing quotas and related price supports.
                                   Persons who owned a farm with an established basic tobacco marketing quota
                                   as of October 22, 2004, or produced tobacco in 2002-2004 were eligible to
                                   receive transitional payments. The Department of Agriculture’s (USDA)
                                   Farm Service Agency (FSA), acting on behalf of the Commodity Credit
                                   Corporation (CCC), administers TTPP and calculates the assessments based
                                   on tobacco product information provided by the manufacturers and importers,
                                   as well as any other information provided or obtained by the Secretary. The
                                   total amount of assessments collected may not exceed $10.14 billion.

                                   FETRA designates six classes of tobacco products for assessment purposes;
                                   cigarettes, cigars, chewing, roll-your-own, pipe, and snuff. Assessments are
                                   levied against these six classes of tobacco products based on the share of
                                   gross domestic volume held by that class of tobacco product as determined
                                   under the statute. The assessments for each class of tobacco product are to be
                                   allocated on a pro rata basis among manufacturers and importers based on
                                   each manufacturer’s or importer’s share of domestic volume. The initial
                                   market shares for the six tobacco classes were provided in FETRA, while any
                                   subsequent allocations may be adjusted by the Secretary to reflect changes in
                                   the share of gross domestic volume held by that class of tobacco product. The
                                   law further provides that each tobacco manufacturer and importer of tobacco
                                   products shall submit to the Secretary a certified copy of the returns or forms
                                   that are required to be filed with the Department of Treasury, Alcohol and
                                   Tobacco Tax and Trade Bureau (TTB), and the Department of Homeland
                                   Security, Customs and Border Protection (CBP). TTB and CBP share tobacco
                                   information with FSA but restrict the use of the information.

                                   FSA, in conjunction with these Federal agencies, quarterly identifies tobacco
                                   product manufacturers and tobacco product importers holding permits and
                                   subject to the imposed assessments. FSA calculates each permitted tobacco
                                   manufacturer’s and importer’s share (market share) of tobacco within the six
                                   tobacco classes from tobacco removal and excise tax information submitted

5
    FETRA section 625(b)(1), October 22, 2004.
6
    Quota holders are persons who owned farms on October 22, 2004, for which tobacco quota was assigned for the 2004 marketing year.
USDA/OIG-A/03601-15-At                                                                                                       Page 1
                   by tobacco entities. The market share within the class, depending on the
                   class, is based either on taxes paid or units for product that is moved into
                   domestic commerce. Once a market share for each entity is established, FSA
                   will compute the assessments for tobacco entities with a market share of
                   .0001 percent (.000001) or greater. No manufacturer or importer shall be
                   required to pay an assessment that is based on a share that is in excess of that
                   manufacturer’s or importer’s share of domestic volume per tobacco class as
                   determined under the statute.

                   To facilitate the billing and collection process, FSA entered into a 3-year
                   contract with a consulting company. FSA transmits the assessment data to the
                   contractor, which in turn electronically performs quality control checks on
                   the data received from FSA to ensure FSA’s calculations are mathematically
                   correct and tobacco entities are properly matched to their customer number,
                   entity name and address information. In addition, the contractor collects
                   payments mailed to FSA’s drop-box and makes deposits to the U.S. Treasury
                   for FSA. The contractor is responsible for properly crediting payments to the
                   tobacco entities’ accounts. FSA’s Financial Management Division in Kansas
                   City manages the actual contract and reconciles the contractor’s billing and
                   collection activities with the official records FSA maintains.

Objectives         The objective of this audit is to determine whether FSA established adequate
                   controls to ensure that domestic tobacco manufacturers and importers of
                   tobacco products are properly assessed and payments (assessments and
                   penalties) are timely submitted to CCC.




USDA/OIG-A/03601-15-At                                                                      Page 2
Findings and Recommendations
Section 1.   Tobacco Assessments



Finding 1           Internal Revenue Code Limits FSA’s Ability to Enforce Collection
                    of Tobacco Assessments and Penalties

                    FSA is limited in its authority to enforce collection of assessments and
                    penalties from non-paying and non-reporting tobacco manufacturers and
                    importers. While the Internal Revenue Code of 1986 (IRC) has stipulations
                    meant to protect the confidentiality of tax information, its strict guidelines
                    limit FSA’s ability to enforce collection of assessments and penalties from
                    entities that do not comply with TTPP regulations. Specifically, CCC
                    depends upon information supplied to it by TTB of the Department of the
                    Treasury to verify information submitted by manufacturers and importers for
                    the purpose of assessment calculations. However, TTB objects to FSA’s
                    direct use of the TTB data to pursue payments from non-paying and non-
                    reporting entities. Collecting these assessments is important to ensure that
                    adequate funds are available to reimburse CCC for payments made to tobacco
                    quota holders and importers.

                    FETRA established TTPP to provide a 10-year transitional payment program
                    for quota holders and producers in exchange for the termination of tobacco
                    marketing quotas and related price support. The payments are funded from
                    quarterly assessments imposed on tobacco manufacturers and importers that
                    sell tobacco products in the United States’ domestic market. These
                    assessments are accounted for in the Tobacco Trust Fund. When the collected
                    assessments are not sufficient to cover the total payments due to quota
                    holders and producers, CCC uses government funds to make up the shortfall.
                    These CCC funds were advanced with the expectation of reimbursement
                    when the assessments are collected.

                    Each year CCC borrows money from the U.S. Treasury to make annual
                    payments to quota holders and producers. FSA then imposes quarterly
                    assessments on tobacco manufacturers and importers to reimburse CCC for
                    the funds it has borrowed. Overall, we found that FSA collected a significant
                    portion of the assessments owed from tobacco manufacturers and importers.
                    Specifically, we determined that FSA has collected $2.9 billion in
                    assessments owed.

                    By early 2007, a number of manufacturers and importers had failed to pay
                    their assessments to CCC, either in part or in full, or had failed to report to
                    CCC information necessary to compute assessments. To date, CCC has not
                    received reimbursement for about $58.3 million of the assessments from
USDA/OIG-A/03601-15-At                                                                      Page 3
                   entities with delinquent payments. In addition, FSA may be owed
                   assessments and interest, as well as penalties, from 62 non-reporting entities.

                   Delinquent (Non-Paying) Entities

                   Our analysis of FSA tobacco assessment records showed that a total of
                   90 entities reported their tobacco activities but did not pay the associated
                   assessments for various reasons including disputes of the amounts assessed,
                   bankruptcies, etc. These entities owe $58.3 million in delinquent assessments,
                   of which approximately $30 million is attributed to 33 entities who have not
                   made any arrangements with FSA to pay their assessments. Twenty-two of
                   the 33 entities have been referred to the Department of Justice (DOJ) for civil
                   action to collect the assessments owed. FSA officials explained that in
                   accordance with provisions of the Debt Collection Improvement Act, they
                   will refer delinquent entities owing at least $5,000 to DOJ for civil action.
                   Without collection of the assessments owed, the $58.3 million of uncollected
                   assessments remains unpaid and could potentially increase as the program
                   progresses.

                   According to FSA procedures, followup letters to these delinquent entities
                   were issued but when that approach failed, CCC determined its only remedy
                   to enforce collection of its assessment was to enlist the assistance of DOJ.
                   Assisted by the Office of the General Counsel (OGC), CCC made a formal
                   request to DOJ to intervene on the behalf of CCC by initiating legal action
                   against the delinquent entities. As part of its request, CCC supplied DOJ with
                   the names of the delinquent entities and other data necessary to establish the
                   amount of overdue assessments owed by each entity.

                   However, starting in early 2007 questions citing the legal prohibitions
                   contained in section 6103(o) of the Internal Revenue Code (IRC) were raised
                   concerning CCC’s citation or use of TTB data to seek enforcement of
                   collection against delinquent entities. Currently, it has been determined
                   among the agencies that DOJ could proceed with the lawsuits against the
                   delinquent entities based on information supplied by entities to CCC, rather
                   than relying on the TTB-supplied tax data.

                   Collecting these assessments is important to ensure that adequate funds are
                   available to reimburse CCC for the payments it makes to quota holders and
                   producers. While the litigation issue is pending, the delinquent balances
                   could potentially increase, as well as CCC’s carrying cost for the funds it
                   borrows to pay quota holders and producers.

                   Non-Reporting Entities

                   FSA has limited authority to enforce collection of assessments and penalties
                   against non-reporters (i.e., those entities which did not report their data
USDA/OIG-A/03601-15-At                                                                     Page 4
                                 directly to CCC). This situation exists because the IRC does not provide any
                                 exceptions for TTPP on issues related to the confidentiality and disclosure of
                                 tax information. In addition, FETRA does not provide a source from which
                                 FSA can identify tobacco manufacturers and importers who are required to
                                 report or another source to obtain the data needed to compute the
                                 assessments. FSA receives data from TTB and CBP and can identify non-
                                 reporting entities from it. FETRA provides FSA with the authority to levy
                                 assessments and penalties against the non-reporting entities’ tobacco activity;
                                 however, the IRC’s restrictions so far have impeded the effort to enforce
                                 collection of these assessments and penalties. Although FETRA requires that
                                 the entities submit their tobacco excise tax information to FSA for quarterly
                                 TTPP assessments, we found that in FYs 2005 and 2006 a total of 62 entities
                                 did not report as required.7

                                 FSA has been negotiating a MOU with TTB, consistent with section 6103(o),
                                 but the MOU in its current state allows FSA to use data provided by TTB
                                 only to validate manufacturers’ and importers’ self-reported tobacco data and
                                 compute the national assessment. The IRC (and, therefore, the MOU) does
                                 not allow FSA to use TTB data (i.e., disclose to DOJ) to enforce the
                                 collection of assessments and penalties against non-reporting entities. FSA is
                                 considering the viability of an amendment to the IRC to gain access to, and
                                 litigation use of, the needed data to enforce assessments and penalties (via
                                 judicial process and levies) against entities who do not voluntarily report their
                                 tobacco activity.

                                 Without a change in the IRC, CCC is restricted in its use of tax data to
                                 enforce the collection of assessments and penalties from non-reporting
                                 entities that potentially may involve many millions of dollars as the program
                                 progresses. FSA is working with OGC to determine if there is any other legal
                                 authority or to develop alternative actions to more effectively enforce the
                                 collection of assessments and penalties from non-reporting entities.

                                 FSA should also check publicly available information released by State (or
                                 other local) revenue or regulatory agencies with which tobacco manufacturers
                                 and importers are required to register and/or report. Such public information
                                 may be available on websites established by these State or local revenue or
                                 regulatory agencies. Preliminary information obtained from such public
                                 sources should be followed up with onsite reviews at these entities to verify
                                 the information. (We noted that current TTPP regulations do not prescribe
                                 any compliance investigations or other monitoring reviews to ensure
                                 compliance with FETRA and TTPP reporting provisions.) At the same time,
                                 FSA needs to work expeditiously to get a signed MOU with TTB so that the
                                 role and responsibilities of each agency are clearly documented.

7
 The Internal Revenue Code – 26 U.S.C. § 6103 – prevents the identification of the amounts of assessments and penalties associated
with the 62 non-reporting entities because such amounts would disclose tax data information provided by TTB to FSA.
USDA/OIG-A/03601-15-At                                                                                                        Page 5
                   FSA and OGC are working together to address legal issues related to the
                   collection of assessments. FSA needs to consult with OGC in developing
                   corrective actions and responding to the audit recommendations. The Office
                   of Inspector General may accept alternative corrective actions put forth by
                   FSA (in consultation with OGC), so long as such alternative actions would
                   correct the causes of the conditions noted in the audit.

Recommendation 1

                   Work with OGC to take legal action, as necessary, to enforce the collection
                   of assessments and penalties from non-paying and non-reporting entities.

                   Agency Response. FSA stated in its August 4, 2008, response:

                         FSA has already referred non-paying entities to the Department
                         of Justice (DOJ), and anticipates that the first complaint will be
                         filed very soon. FSA will continue to refer non-paying entities to
                         OGC for referral to DOJ for litigation.

                         FSA is working with OGC to resolve problems related to non-
                         reporting entities, and to develop alternative courses of action
                         within the nine months.

                   OIG Position

                   We accept management decision for this recommendation.

Recommendation 2

                   Develop and implement TTPP regulations and policies and procedures for
                   compliance reviews under TTPP, to include authorizing FSA personnel to
                   conduct onsite compliance reviews of all entities required to report to FSA.

                   Agency Response. FSA stated in its August 4, 2008, response:

                         FSA agrees to publish regulations to authorize FSA personnel to
                         conduct onsite compliance reviews of all entities required to
                         report to FSA within the next nine months. At the present time,
                         FSA lacks the funding to conduct such onsite reviews but will
                         endeavor to secure them.




USDA/OIG-A/03601-15-At                                                                        Page 6
                   OIG Position

                   We accept management decision for this recommendation.

Recommendation 3

                   Continue to work with TTB to achieve a MOU that will allow FSA to use
                   TTB’s data to identify tobacco permit holders and tax return data to calculate
                   assessments owed.

                   Agency Response. FSA stated in its August 4, 2008, response:

                         FSA agrees to continue to work with TTB, OGC, and DOJ to
                         seek a modification to the current MOU to resolve any obstacles
                         inhibiting the FSA’s use of TTB data to identify tobacco product
                         manufacturers and importers and calculate assessments owed
                         within the next nine months.

                   OIG Position

                   We accept management decision for this recommendation.




USDA/OIG-A/03601-15-At                                                                      Page 7
Section 2.   Program Procedures
Finding 2           Program Operating Procedures Were Not Documented

                    FSA has not documented its policies and procedures for operating the
                    tobacco transition assessment program. FSA officials told us they hesitated to
                    develop a directive or handbook because of concerns in revealing their
                    internal operating procedures and because of the sensitive nature of the data
                    used to calculate the tobacco assessments. In addition, with only two to three
                    personnel using the data, agency officials believed written procedures were
                    not necessary to continue operating the tobacco assessment program.
                    However, without documented procedures, FSA cannot ensure that
                    (1) tobacco assessments are consistently calculated each billing cycle,
                    (2) documented program instructions are available in case of employee
                    turnover, and (3) assessment accuracy is validated through appropriate
                    second party reviews.

                    According to the Office of Management and Budget (OMB) Circular A-123,
                    management has a fundamental responsibility to develop and maintain
                    effective internal controls. The circular defines internal control as
                    organization, policies, and procedures to help managers safeguard the
                    integrity of their programs. These controls include proper segregation of
                    duties, proper authorization, and appropriate documentation.

                    The agency has not documented the procedures it follows when calculating
                    the tobacco entities’ market shares and subsequent assessments. Without
                    documenting the method used to calculate the assessments, including how
                    information from source documents is used during the process, FSA cannot
                    ensure its staff uses the same calculation method each assessment billing
                    cycle. Written policies and procedures for the tobacco assessment program
                    would ensure there is a guide for consistently performing the assessment
                    process.

                    FSA’s lack of written instructions for the assessment program could hinder
                    the agency’s operations if the employee who performs the assessment
                    calculation was to leave the agency. FSA has a very small staff for TTPP.
                    Aside from management staff, only one employee is responsible for
                    reviewing the source documents submitted by tobacco manufacturers and
                    product importers, entering the tobacco product volume and tax information
                    into a spreadsheet, calculating the tobacco entities’ assessments and
                    following up with the tobacco entities when necessary to obtain reports. This
                    same employee also performs a yearly reconciliation to verify that each
                    tobacco entity was properly assessed during the year and prepares a case file
                    for administrative appeals. Essentially, this employee performed all the
                    assessment calculation functions for this multi-billion dollar program.


USDA/OIG-A/03601-15-At                                                                     Page 8
                   With one employee performing all the assessment calculation functions, a
                   second party review is an essential control feature that should be performed.
                   The second party reviews that FSA performed were only a mathematical
                   check of assessment calculations and did not include spot checks of the
                   source documents submitted by tobacco manufacturers and importers. A
                   second party review that includes spot checks of the source documents used
                   to calculate the assessments can ensure the underlying data used to calculate
                   the assessments is input correctly and was not manipulated due to human
                   error or fraud. Having detailed written instructions for performing the
                   reviews would provide needed guidelines for a sufficient review process.

                   When we discussed FSA’s need for documented policies and procedures for
                   the tobacco transition assessment program, agency officials told us that with
                   only two to three employees using the data they did not consider written
                   procedures as necessary. Besides, with the sensitive nature of the data used to
                   calculate the assessments, they were hesitant in developing a handbook or
                   directive because it would reveal the agency’s internal process for calculating
                   the tobacco assessments. We disagree that FSA’s internal process would be
                   compromised and maintain that written procedures are necessary to provide
                   instructions in the event of employee turnover and to ensure consistency in
                   the calculation process. In addition, written procedures would be needed to
                   defend the assessment calculation process in the event of appeals or lawsuits.
                   FSA needs to document procedures for calculating the assessments, including
                   how source documents are used, and procedures for performing second party
                   reviews.

Recommendation 4

                   Develop written policies and procedures documenting the tobacco transition
                   assessment process to ensure that the assessment process is performed
                   consistently and documented instructions are available in case of employee
                   turnover. The procedures should identify levels of review, authorizations, and
                   other content pertinent to the requirements of FETRA and of the Federal
                   regulations.

                   Agency Response. FSA stated in its August 4, 2008, response:

                         FSA agrees to develop written policies and procedures
                         documenting the tobacco transition assessment process within the
                         next nine months. The directive will address segregation of
                         duties, proper authorizations and methodology for second party
                         reviews.

                   OIG Position

                   We accept management decision for this recommendation.
USDA/OIG-A/03601-15-At                                                                      Page 9
Scope and Methodology
                   We reviewed FSA’s procedures for levying tobacco transition assessments to
                   determine if domestic tobacco manufacturers and importers of tobacco
                   products are properly assessed and payments (assessments and penalties)
                   were timely submitted to the CCC. The review covered FYs 2005 through
                   2007 and current operations at FSA Headquarters in Washington, D.C.

                   Fieldwork was performed from January 2007 through December 2007.

                   To accomplish our audit objectives, we performed the following procedures:

                   •     From discussions with FSA officials, we documented procedures for
                         calculating the tobacco assessments; collecting delinquent debt; and
                         procedures for identifying and penalizing any non-reporting tobacco
                         entities. We also reviewed USDA’s administrative appeals process for
                         disputing tobacco transition assessments to determine if all appeals were
                         handled in a manner consistent with FSA’s tobacco regulations and
                         FETRA. Our review of the appeals indicated that FSA is conducting the
                         administrative appeals process in accordance with FSA’s tobacco
                         regulations and FETRA.

                   •     We identified the procedures FSA followed to calculate the tobacco
                         transition assessments. We met with FSA’s billing and collections
                         contractor to determine when and how the assessments are billed and
                         collected.

                   •     We used FSA’s data on manufacturers and importers as the universe for
                         our sample selection. We narrowed the universe of tobacco
                         manufacturers and importers to include entities that were billed an
                         assessment in FY 2005. We judgmentally selected tobacco
                         manufacturers and importers (within each class of tobacco) whose
                         combined assessments were at least 10 percent of the assessments levied
                         on each class of tobacco products during FY 2005. As a result, entities
                         who owed larger assessments were sampled and those with large market
                         shares of their tobacco class. Our sample included 12 tobacco
                         manufacturers and product importers whose individual or combined
                         assessments were at least 10 percent of their class’ assessment. The
                         sample included seven assessed entities from the cigarette class, one
                         from the cigar class, two from the snuff class, one from the pipe class,
                         one from the roll-your-own class, and one from the chewing class. We
                         then randomly selected and reviewed 29 different quarterly assessments
                         levied against the entities in our sample. We tested the accuracy of these
                         entities’ assessment calculations and whether their assessment payments
                         were made timely and were paid in full.
USDA/OIG-A/03601-15-At                                                                    Page 10
                   •     We reviewed FSA’s FYs 2005 and 2006 tobacco assessment collection
                         data and aged all accounts listed to determine when the assessments
                         were collected. Payments are due 30 days after receiving the notification
                         of assessment from FSA. These notices are sent quarterly on March 1,
                         June 1, September 1, and December 1. Our analysis showed that for
                         FY 2005, 99 of 215 (46 percent) entities paid by the due date and the
                         remaining 116 entities are in various stages of collection for delinquent
                         assessment and interest balances. For FY 2006, 220 of 330 (68 percent)
                         entities paid by the due date and the remaining 110 entities are in
                         various stages of collection for delinquent assessment and interest
                         balances.

                   •     We interviewed FSA staff from the Financial Management Division in
                         Kansas City about FSA’s policies and procedures for collecting
                         delinquent assessments from tobacco entities. We reviewed their
                         accounts receivable aging reports to determine if the assessments were
                         paid in a timely manner. We inquired as to when the assessments were
                         considered delinquent, how the delinquent entities were notified, if
                         interest and penalties were assessed, and if any litigation was involved.
                         We reviewed FSA’s monthly payment detail showing the amount of
                         payment received and the method of payment. In addition, we reviewed
                         aged accounts receivable reports to identify approximately 90 entities
                         with $58.3 million in delinquent balances as of September 30, 2007.

                   •     We interviewed FSA staff about penalties for non-reporting tobacco
                         entities. We examined the agency’s methodology for calculating non-
                         reporting penalties and actions taken to levy these penalties. In
                         FY 2005, 42 entities did not provide their excise tax information to FSA
                         and 38 entities during FY 2006.

                   •     We did not perform any audit procedures at FSA’s billing contractor,
                         FSA contracted an independent auditor, KPMG, Limited Liability
                         Partnership, to perform a Statements on Auditing Standards 70 audit and
                         report on the controls the contractor placed into operation and to
                         perform tests on the contractor’s operating effectiveness. The auditor’s
                         report covered October 1, 2006, through March 31, 2007. KPMG found
                         the contractor’s internal controls were suitably designed to provide
                         assurance that all control objectives were met.

                   We conducted this performance audit in accordance with generally accepted
                   government auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to provide a
                   reasonable basis for our findings and conclusions based on our audit
                   objectives. We believe that the evidence obtained provides a reasonable basis
                   for our findings and conclusions based on our audit objectives.


USDA/OIG-A/03601-15-At                                                                   Page 11
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 3




USDA/OIG-A/03601-15-At                       Page 12
Exhibit A – Agency Response
                              Exhibit A – Page 2 of 3




USDA/OIG-A/03601-15-At                       Page 13
Exhibit A – Agency Response
                              Exhibit A – Page 3 of 3




USDA/OIG-A/03601-15-At                       Page 14
